Supreme Court Litigation Clinic
Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724.1900
Fax 650 723.4426
sup.ct.clinic@law.stanford.edu

September 25, 2019
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Garner v. Colorado, No. 19-75
Dear Mr. Harris,
Petitioner hereby waives the 14-day rule and requests that the case be
distributed on October 2, 2019 for the conference on October 18, 2019. Petitioner
will file his reply brief on or before October 2.
Thank you very much in advance.

Very truly yours,

Jeffrey L. Fisher

Counsel for Petitioner

cc:

All Counsel

Community Law ♣ Criminal Defense ♣ Environmental Law ♣ Immigrants' Rights
International Human Rights and Conflict Resolution ♣ Juelsgaard Intellectual Property and Innovation
Organizations and Transactions ♣ Religious Liberty ♣ Supreme Court Litigation ♣ Youth and Education Law Project

